I N T H E S U P R E M E C O U R T O F T H E U NI T E D S T A T E S

J O H N S O N, C A R M E N
P etiti o n er
vs.

N o:

2 0- 1 6 5 6

US A
W AI V E R
T h e G o v er n m e nt h er e b y w ai v es its ri g ht t o fil e a r es p o ns e t o t h e p etiti o n i n t his c as e,
u nl ess r e q u est e d t o d o s o b y t h e C o urt.

E LI Z A B E T H B. P R E L O G A R
A cti n g S oli cit or G e n er al
C o u ns el of R e c or d
J u n e 0 1, 2 0 2 1
c c:
A N D RE W B R O O KS G REE NLEE
A N D R E W B. G R E E N L E E, P. A.
4 0 1 E. 1 S T S T R E E T
U NI T 2 6 1
S A N F O R D, F L 3 2 7 7 2

